Department of Homeland Security
   Ofﬁce of Inspector General



 Better Oversight Needed of Support Services 

Contractors in Secure Border Initiative Programs





OIG-09-80                                June 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                     June 17, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of our review to determine whether U.S. Customs
and Border Protection (CBP) has established adequate controls and effective oversight of
contract workers providing support services to Secure Border Initiative programs. It is
based on interviews with CBP employees, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General

Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


     Contractors Performing Inherently Governmental Functions........................................3 

     Contractor Oversight Needed ........................................................................................4 

     Continued Overreliance on Contractors Poses Program Risks......................................5 

     Recommendations..........................................................................................................6 

     Management Comments and OIG Analysis ..................................................................6 


Appendixes
     Appendix A:          Purpose, Scope, and Methodology..........................................................9 

     Appendix B:          Management Comments to the Draft Report ........................................10 

     Appendix C:          Major Contributors to this Report .........................................................14 

     Appendix D:          Report Distribution................................................................................15 


Abbreviations
     CBP                 U.S. Customs and Border Protection 

     COTR                contracting officer’s technical representative 

     DHS                 Department of Homeland Security 

     SBI                 Secure Border Initiative 





   Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      This report presents the results of our review to determine whether
                      U.S. Customs and Border Protection has established adequate
                      controls and effective oversight of contract workers providing
                      support services to Secure Border Initiative programs.

                      U.S. Customs and Border Protection has not established adequate
                      controls and effective oversight of contract workers responsible for
                      providing Secure Border Initiative program support services.
                      Because of the Department of Homeland Security’s aggressive
                      Secure Border Initiative program schedule coupled with shortages
                      of government program managers and acquisition specialists, in
                      the early years of the Secure Border Initiative program, U.S.
                      Customs and Border Protection relied on contractors to fill the
                      skills gap and get the program underway. U.S. Customs and
                      Border Protection continues to rely heavily on contract personnel,
                      who comprise more than 50% of the Secure Border Initiative
                      workforce. Furthermore, U.S. Customs and Border Protection has
                      not clearly distinguished between roles and responsibilities that are
                      appropriate for contractors and those that must be performed by
                      government employees. U.S. Customs and Border Protection also
                      has not provided an adequate number of contracting officer’s
                      technical representatives to oversee support services contractors’
                      performance. As a result, contractors are performing functions that
                      should be performed by government workers. This heavy reliance
                      on contractors increases the risk of U.S. Customs and Border
                      Protection losing control of decision making in Secure Border
                      Initiative program management.

                      Although U.S. Customs and Border Protection has recently taken
                      steps to improve Secure Border Initiative program management by
                      hiring knowledgeable and experienced program managers,
                      additional controls are needed to ensure effective oversight of
                      support contractor activities. We are recommending that U.S.
                      Customs and Border Protection use only federal employees to
                      perform inherently governmental functions, and hire additional
                      contracting officer’s technical representatives to oversee contractor
                      performance.



 Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                           Page 1
______________________________________________________________________________________


Background
                        In 2005, the Secure Border Initiative (SBI) was announced as a
                        comprehensive, department-wide effort to secure the Nation’s
                        borders. The program was designed to help the department
                        achieve its goal of gaining operational control of the southwest
                        border within five years through new and improved strategies and
                        programs, including (1) enhanced use of people, technology, and
                        processes; (2) upgraded infrastructure, such as roads, fencing, and
                        Border Patrol facilities; and (3) transportation of detainees from
                        Border Patrol facilities to strategically located detention centers.
                        U.S. Customs and Border Protection (CBP) was given
                        responsibility for program planning, management, and contract
                        administration.

                        The department established aggressive timeframes for completing
                        significant portions of SBI, such as broad deployment of detection
                        and surveillance technology along the southwest border in 2008.
                        However, at the start of the program, neither CBP nor the
                        Department of Homeland Security (DHS) as a whole had enough
                        program managers and acquisition specialists to plan and manage
                        such a large-scale, complex program. To fill the skills gap and get
                        the program underway, CBP made extensive use of contractor
                        support services. CBP established an SBI program management
                        office as well as an acquisition office directly responsible for
                        administering SBI contracts. Table 1 shows the number and mix
                        of contractor and government personnel assigned to SBI program
                        management since the program’s inception.

                        Table 1: Contract and Government Employees in SBI Programs



                     Program Startup      May 2007        November 2007      March 2008      November 2008*

                    Number       %      Number       %    Number     %      Number     %     Number     %

       Contract       129        78      120         57    174      53        175      51      136     51

       Government     37         22       89         43    152      47       167       49      132     49

       Total          166                209               326               342               268

       *The workforce reduction in November 2008 reflects the transportation program’s removal from
       SBI.

                        CBP relied on monthly progress reports as its primary mechanism
                        for overseeing support service contactors’ performance.


  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                                 Page 2
______________________________________________________________________________________


Results of Audit
                          CBP has not established adequate controls and effective oversight
                          of contract workers responsible for providing SBI program support
                          services. Given the department’s aggressive SBI program
                          schedule and shortages of program managers and acquisition
                          specialists, CBP relied on contractors to fill the staffing needs and
                          get the program underway. However, CBP has not clearly
                          distinguished between roles and responsibilities that are
                          appropriate for contractors and those that must be performed by
                          government employees. CBP also has not provided an adequate
                          number of contracting officer’s technical representatives (COTRs)
                          to oversee support services contractors’ performance. As a result,
                          contractors are performing functions that should be performed by
                          government workers. This heavy reliance on contractors increases
                          the risk of CBP relinquishing its responsibilities of SBI program
                          decisions to support contractors while remaining responsible and
                          accountable for program outcomes.

                  Contractors Performing Inherently Governmental
                  Functions
                          According to the Federal Acquisition Regulation, agencies should
                          not use contractors to perform inherently governmental functions,
                          such as drafting congressional testimony or responding to
                          congressional correspondence and independent auditor reports.
                          The Federal Acquisition Regulation also provides examples of
                          functions that are generally not considered inherently
                          governmental, but because of their nature, the manner in which the
                          contractor performs them, or the manner in which the government
                          administers the contract may approach the category of inherent
                          governmental function. Such functions may involve or be related
                          to planning, reorganization, acquisition support, contract
                          management assistance, development of statements of work, and
                          agency representation.1

                          Despite these regulations, CBP did not clearly distinguish between
                          roles and responsibilities that were appropriate for contractors and
                          those that must be performed by government workers because of
                          the rush to fill program management positions and get SBI started.
                          SBI progress reports for May and June 2007 showed that the
                          largest support contractor performed activities that should have
                          been the responsibility of government employees, such as drafting


1
    FAR section 7.503, Inherently Governmental Functions.
     Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                                Page 3
______________________________________________________________________________________

                            a statement for presentation by the Border Patrol chief and the SBI
                            executive director at a Congressional hearing.

                            Similarly, a May 2007 progress report for the same support
                            contractor showed that it performed functions that are generally
                            not considered to be inherently governmental functions. However,
                            these services and actions may approach that category because of
                            the nature of the function, the manner in which the contractor
                            performed the contract, or the manner in which the Government
                            administered contractor performance. These activities included the
                            following:

                            �	 Facilitating the planning and update of the SBI program
                               management task order;
                            �	 Preparing an initial draft of the statement of work for
                               command, control, communications, and intelligence design;
                            �	 Helping draft the acquisition plan for the command, control,
                               communications, and intelligence common operating picture;
                               and
                            �	 Providing coverage in the absence of SBI fencing and common
                               operating picture project managers.

                            The Federal Acquisition Regulation cautions that contracts
                            supporting government policymaking or decisionmaking require
                            special management attention to ensure that contractors do not
                            perform inherently governmental functions and that government
                            officials properly exercise their authority.2

                   Contractor Oversight Needed
                            SBI program management did not have enough COTRs to provide
                            oversight of SBI support contractors. The shortage of COTRs
                            resulted in the following situations:

                            �	 One contract without an assigned COTR;
                            �	 The contracting officer responsible for administering all 18
                               support services contracts also assigned as their COTR;
                            �	 The executive director, SBI Acquisition Office, serving as
                               COTR; and
                            �	 A program manager responsible for managing the SBInet Test
                               and Evaluation Plan assigned as COTR for a support services
                               contract that supplied more than 100 workers across SBI


2
    FAR section 37.114, Special Acquisition Requirements.

     Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                                  Page 4
______________________________________________________________________________________

                             program offices allowing only 1 hour per week for COTR
                             responsibilities.

                         The Office of Management and Budget specifies as a best practice
                         in contract administration that COTRs function as the “eyes and
                         ears” of their contracting officers, monitoring technical
                         performance and reporting any potential or actual problems that
                         arise. COTRs must stay in close communication with the
                         contracting officers, relaying any information that may affect
                         contractual commitments and requirements.

                         COTRs assigned to SBI support services contracts did not take
                         action or notify the contracting officers when progress reports
                         showed that contractors were performing prohibited or
                         questionable activities. Further, as the number of SBI contractors
                         increased, the COTRs had little time for contract oversight duties
                         beyond reviewing contractors’ time charges and travel claims.

                         COTRs assigned to SBI support services contracts told us that,
                         because they were stretched so thin, the only way they would know
                         whether a contractor was performing an inherently governmental
                         function would be when a program manager brought it to their
                         attention.

                Continued Overreliance on Contractors Poses
                Program Risks
                         Three years into the SBI program, CBP still has not reevaluated the
                         mix of contractors and government employees assigned to SBI
                         programs or delineated roles and responsibilities to ensure that
                         contractors are not performing inherently governmental functions.
                         Nor has CBP assigned an adequate number of COTRs to oversee
                         support services contractors’ performance. Although in the past
                         year CBP has hired a number of knowledgeable and experienced
                         program managers and contracting officers, contractors still
                         comprise more than 50% of the total SBI workforce.

                         With continued heavy reliance on contractor support services, CBP
                         risks losing control of program decisions while remaining
                         accountable for mission results. According to a Government
                         Accountability Office report, the closer activities performed by
                         contractors come to supporting inherently governmental functions,
                         the greater the risk that contractors can influence decisionmaking.3

3
 Improved Assessment and Oversight Needed to Manage Risk of Contracting for Selected Services, GAO­
07-990, September 2007.
   Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                              Page 5
______________________________________________________________________________________

                       Undue contractor influence with limited government oversight and
                       control can result in decisions that are not in the best interest of the
                       government and can increase vulnerability to waste, fraud, abuse,
                       and mismanagement.

               Recommendations
                       We recommend the Commissioner, U.S. Customs and Border
                       Protection:

                       Recommendation #1: Distinguish between the roles and
                       responsibilities of SBI contractors and those of government
                       employees to ensure that only the latter are performing inherently
                       governmental functions.

                       Recommendation #2: Assign additional COTRs to oversee SBI
                       support services contractor performance.

               Management Comments and OIG Analysis

                       CBP provided general and specific comments to the report and
                       recommendations. We summarized and addressed these comments
                       below. A copy of CBP’s written response is included in Appendix
                       B.

                       CBP’s General Comments:

                       CBP management stated that the interval between our field work
                       and draft report resulted in the report containing outdated
                       information and omitting significant progress made by the program
                       office. CBP stated that inherently governmental positions and
                       functions were identified as required by regulations. In addition,
                       CBP stated that prohibited and questionable activities attributed to
                       contract workers did not occur.

                       OIG Analysis: CBP accurately reported the timing of our field
                       work and draft report. We based our audit findings and
                       conclusions on information provided by CBP during field work.
                       However, CBP did not provide information we specifically
                       requested during field work, such as the annual inventories of
                       inherently governmental functions required by Office of
                       Management and Budget Circular A-76. SBI officials said they
                       did not know whether the 2007 inventory included SBI since the


  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs 


                                             Page 6

______________________________________________________________________________________

                       inventory was conducted within a few months of the SBI
                       program’s initiation. Further, SBI officials did not provide a long-
                       range plan for use of contractor support services or identify the
                       appropriate mix of contractor and government workers. CBP did
                       not provide this information until after completion of our field
                       work, in response to a draft of this report.

                       The additional information provided by CBP corroborated the
                       findings and conclusions we developed during field work. For
                       example, the SBI Mission Action Plan, completed in February
                       2008, stated that SBI leadership had difficulty assessing and
                       finalizing human capital needs. A later version of the plan
                       extended the deadline for corrective action to clarify roles and
                       responsibilities of acquisition management positions to September
                       30, 2009. Similarly, the Review of Organizational and Staffing
                       Plans completed by CBP’s Office of Human Resources
                       Management in April 2008 stated that SBI management was
                       reluctant to discuss its organization structure and staffing plans and
                       needed to clearly define roles and responsibilities of operational
                       personnel.

                       Our finding that contractors performed prohibited and questionable
                       activities was based on documents provided by CBP. Monthly
                       Progress Reports identified CBP support services contractors
                       performing prohibited and questionable activities that should have
                       been brought to the attention of the Contracting Officer. We could
                       not trace these progress reports to specific workers or locations in
                       order to determine whether the prohibited and questionable
                       activities were accurately reported. Also, CBP could not
                       demonstrate that the prohibited and questionable activities were
                       brought to the attention of the Contracting Officer or that steps
                       were taken to prevent similar questionable activities from
                       occurring in the future.

                       CBP’s Comments to Recommendation #1:

                       CBP concurred with this recommendation and said that it had
                       provided documentation to the Office of Management and Budget
                       distinguishing between the roles and responsibilities of contractors
                       and government employees.

                       OIG Analysis: We recognize that CBP has actions underway to
                       identify roles and responsibilities of acquisition positions, but these
                       actions do not satisfy the intent of our recommendation. Office of
                       Management and Budget Circular A-76 requires each federal
                       agency to prepare and submit an inventory of commercial activities
  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 7
______________________________________________________________________________________

                       performed by federal employees; however, the inventory does not
                       include activities performed by contractors. Further, SBI Strategic
                       Human Capital Plans and Border Security, Fencing, Infrastructure
                       and Technology Expenditure Plans described contractor activities
                       in broad, general terms. The resource review performed by the
                       Office of Human Resources supported our recommendation to
                       clarify roles and responsibilities of operational personnel.

                       This recommendation will remain open until CBP identifies the
                       roles and responsibilities of the SBI workforce, including
                       contractors.

                  CBP’s Comment to Recommendation #2:

                       CBP concurred with this recommendation and reported that it has
                       increased its number of COTRs to 47.

                       OIG Analysis: We recognize the improvements CBP has made in
                       increasing the number of COTRs to oversee the current contract.
                       However, CBP has not finalized its Strategic Human Capital
                       Framework, Plan of Action and Milestones, and Long-Range
                       Human Capital Plan to identify all of the competencies and skill
                       sets it will need to sustain operations and oversee future contract
                       actions as the SBInet Program evolves and progresses.

                       This recommendation will remain open until the Strategic Human
                       Capital Framework, Plan of Action and Milestones, and Long-
                       Range Human Capital Plan are finalized.




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 8
Appendix A
Purpose, Scope, and Methodology
________________________________________________________________________

               The objective of our review was to determine whether U.S. Customs and
               Border Protection (CBP) has established adequate controls and effective
               oversight of contract workers providing support services to Secure Border
               Initiative (SBI) programs.

               We interviewed government officials and contract employees at CBP
               headquarters in Washington, DC. We reviewed 18 service contracts and
               interagency agreements (11 labor and materials contracts, 6 estimated cost
               contracts, and 1 cost reimbursable contract) in place between October 1,
               2006, and March 31, 2008. We developed an understanding of internal
               controls over service contracts and interagency agreements by focusing on
               risks identified in prior Government Accountability Office reports and
               congressional hearings and CBP’s procedures to mitigate those risks;
               reviewing pertinent sections of the Federal Acquisition Regulation; and
               interviewing CBP officials responsible for administering the contracts and
               agreements. The understanding gained was used to plan the audit and
               determine the nature, timing, and extent of tests to be performed. In
               addition, we reviewed the methodology used and progress made in
               building organizational capacity at the SBI Program Executive Office; the
               SBInet, Tactical Infrastructure, and Transportation Program Management
               Offices; and the SBI Acquisition Office.

               We conducted this performance audit between September 2007 and June
               2008 according to generally accepted government auditing standards.
               Those standards require that we plan and perform the audit to obtain
               sufficient, appropriate evidence to provide a reasonable basis for our
               findings and conclusions based on our audit objectives. The evidence
               obtained provides a reasonable basis for our findings and conclusions
               based on our audit objectives.




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 9
Appendix B
Management Comments to the Draft Report
________________________________________________________________________




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 10
Appendix B
Management Comments to the Draft Report
________________________________________________________________________




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 11
Appendix B
Management Comments to the Draft Report
________________________________________________________________________




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 12
Appendix B
Management Comments to the Draft Report
________________________________________________________________________




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 13
Appendix C
Major Contributors to this Report
________________________________________________________________________

                       Mark Ferguson, Audit Manager
                       Patricia Alcaniz, Auditor
                       Frank Lucas, Auditor
                       Vanessa Santos, Auditor




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs 


                                            Page 14 

Appendix D
Report Distribution
________________________________________________________________________

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Acting General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Under Secretary for Management
                       Chief Procurement Officer
                       DHS Audit Liaison
                       Acting Commissioner, Customs and Border Protection
                       Director, SBI Program Executive Office
                       Director, SBI Acquisition Office
                       OIG Liaison, CBP

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Programs

                                            Page 15
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
